Department of Health and Human Servces
       OFFICE OF
  INSPECTOR GENERAL




      YOUTH AND ALCOHOL:
     SUMMARY OF RESEARCH
ALCOHOL ADVERTISING' S EFFECT ON YOUTH




        "pVIO

                   Richard P. Ku"erow
        JV
                   INSPECTOR GENERA

             dIa       JANARY 199
                       OFFCE OF INSPECfOR GENRA
The miion of the Offce of Inpector General (OIG), as mandated by Public Law 95-452, as
amended is to protect the integrty of the Department of Health and Human Servce ' (OOS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mision is carred out through a nationwide network of audits , investigations , and
inpections conducted by three OIG operating components: the Offce of Audit Servce , the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also inorms
the Secretary of OOS of program and management problems and recmmends courses to
correct them.

                            OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servce (OAS) provides all auditing servce for OOS , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examie the performance of OOS programs and/or its grantee and contractors in
carrg out their respective responsibilties and are intended to provide independent
assesments of OOS programs and operations in order to reduce waste, abuse, and
mimanagement and to promote ecnomy and effciency throughout the Department.

                            OFFCE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts criminal , civil , and admitrative
investigations of allegations of wrongdoing in OOS programs or to OOS beneficiaries and of
unjust enrchment by providers. The investigative effort of 01 lead to crial     convictions
admiistrative sanctions , or civil money penalties. The 01 also oversee State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFCE OF EVALUATION AN INSPECTONS
The OIG' s   Offce of Evaluation and Inspections (OEI) conducts short-term    management and
program evaluations (called inpections) that focus on issues of concern to the Department
the Congres, and the public. The fidings and recmmendations contained in these inpection
report generate rapid , accurate , and up- to-date information on the effciency, vulnerabilty,
and effectiveness of departmental programs.

Th report was prepared under the direction of Kaye D. Kidwell , Regional Inspector General
and Paul A Gottlober, Deputy Regional Inspector General , Offce of Evaluation and
Inpections , Region IX. Participating in this project were:

Elizabeth Bell                 Jennifer Mallen                        Maruta Zitans

Th report is one in a series of reports on youth and alcohol. Related report include:
"Youth and Alcohol: A National Survey--Driking Habits , Acc , Attitudes , and Knowledge
OEI-09-91-0052; "Youth and Alcohol: A National Survey-- Do They Know What They
Drig?" OEI- 09-91-0053; "Youth and Alcohol: Laws and Enforcement--Is the 21-Year-
Old Dring Age a Myth?" OEI-09-91-050; "Youth and Alcohol: Laws and Enforcement-­
Compendium of State Laws " OEI-09-91-0055; and ' 'Youth and Alcohol: Controllng Alcohol
Advertising that Appeals to Youth " OEI- 09-91- 0054.
Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




      YOUTH AND ALCOHOL:
     SUMMARY OF RESEARCH
ALCOHOL ADVERTISING' S EFFECT ON YOUTH




         .,VI.




                 Richard P. Ku"erow
         JV
                 INSPECTOR GENERA

       '~dIa         OEI-09-91-051
                            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..




                           TABLE OF CONTENTS


INODUcrON .

SUMY OF REEACH FIINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

   EFFECT OF ALCOHOL ADVERTISING AN MEDIA PORTRYAL

   OF ALCOHOL ONYOUI             ............................ 3

                                             A7TES




   EFFECT OF ALCOHOL ADVERTISING ON                                      YOUI CONSUMPTON.                         . . . . 4

   ADVERTISING IMGES                    AN mEMES                ATTCT TO                     YOUI          . . . . . . . . 5

    STUIES ON mE EFFECT OF ALCOHOL ADVERTISING ON                                                     ADULTS.           . 6





APPENIX
   ANOTATED BIBLIOGRAHY.                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-
   INEX            ................................................... A­
                           INTRODUCTION

 PUROSE
 Ths inspection reviewed the research on the effects of alcohol advertsing on youth.

 BACKGROUN
 In response to public health concerns and the adverse health consequences of alcohol
 abuse, Surgeon General Antonia Novello requested that the Offce of Inspector
 General (OIG) review and describe the research that has been conducted on the
 effects of alcohol advertsing on youth. These concerns mior one of Departent of
 Health and Human Servces Secretary Louis Sulvan s goals which is to reduce the
 prevalence of alcohol problems among chidren and youth. Ths report is one in a
 series prepared by the OIG related to youth and alcohol.

 In a related study on youth and alcohol, the OIG found that more than 10 mion
 7th though 12th grade students drank alcohol in the past year and 6. 9 mion are able
 to walk into a store and buy alcohol.Thus , students not only have access to alcohol
 but also represent a group of consumers who are potentially open to suggestions from
 alcohol advertisements.

 Controversy surrounds alcoholic beverage advertsing, its effects on youth , and the
 extent to which it should be reguated. Citizen groups , industry spokesmen, and
  researchers disagree about the effects of advertsing on consumption and attitudes.
. Debate also centers around the First Amendment rights of advertisers versus public
 health concerns.


 CUen Poli Regardg Akohol Adverg
 Alcoholic beverage reguation varies accordig to     tye of beverage. The three main
 tyes of alcoholic beverages are distiled spirts (also known as liquor), malt beverages
 and wie. Regulation    of these alcoholic beverages lies priariy with the Federal
 Bureau of Alcohol , Tobacco , and Firearms (BATF). Labeling of wie beverages with
 less than 7 percent alcohol by volume is under the jurisdiction of the Food and Drug
 Admnistration.

 Cuent reguations governg alcoholic beverage advertising in the United States
 consist of Federal Trade Commssion and BATF regulations as well as voluntary
 standards developed by broadcasters and the alcoholic beverage industry. Distiled
 spirts companies observe a voluntary ban of television and radio advertising. The
 beer industry s voluntary gudelines disallow the portrayal or encouragement of


         u.S. Department of Health and Human Servce, 0IG- 081, Youth and Alcohol: A National
                Habits. Accs. Attitudes. and Knowledee. 081-0- 91- 0052 , June 1991.
 SUIVev--Drinkine
underage drkig and discourage ads that link drinking with education? By adopting
these and other self-regulating standards , alcoholic beverage advertisers have avoided
active government-imposed restrictions.

Researrh on Akohol Adverg and Consptin

Research on the effects of alcohol advertising has produced confctig fidigs on
advertising s effect on consumption. Whe studies have not consistently shown that
advertising increases adult alcohol consumption , some researchers believe that
exposure to alcohol advertising affects youth' s           attitudes about alcohol's role in society.
Researchers have not reached consensus on the interpretations of these fidings.

Cuent research             on alcohol advertising and youth includes sureys that       rely on self-
reported consumption and some experiental research. Content analyses provide
inormation about the images and themes used in alcohol ads , many of which youth
fid attractive. Other studies on alcohol advertising use experients with adult
consumption , case studies on alcohol advertising bans and restrictions , and
econometric analyses that compare advertising expenditures with aggegate alcohol
sales.

This report describes research on the effects of alcohol advertsing on youth.
Appendi A provides an aunotated bibliography of recent literature regardig alcohol
advertising and its effects.

METHODOLOGY

We collected and reviewed post- 1975 research on the effects of alcohol advertising on
youth. We identifed these studies through (1) b'brary literature research and
(2) intervews with public interest groups , industry organiations, governent agencies
and research groups. Discussions focused on the groups ' perspectives on alcohol
advertising and the available research that supports their viewpoints about the effects
of advertising on youth. In this inspection , we did not validate the methodologies of
the research.




         Beer Institute,      Brewing Industrv Advertising Guidelines. Decmber 1984.
 SUMMARY OF RESEARCH FINDINGS
EF    OF      ADVETIING AN MEIA PORTR YAI
                  ALHOL

ALHOL ON YOUI IlIHJD
Among elementary school chidren, exposure to beer commercials is related to beliefs
about beer drinkng and expectations to drink as an adult. Wallack et al. (1990)
intervewed a probabilty sample of 468 5th and 6th grade students from a suburban
school district to obtain self-reports on television viewig, attention to beer
commercials , and beliefs about beer. Chidren were shown stil photographs of
currently televised alcohol advertsements and asked whether they recogne the
advertsements. Children recogning three or more commercials        are three times more
liely than those who recogne one or no   commercials    to believe that beer use is
 cool" or "macho. " The most frequent viewers of televised sporting events, which
broadcast several beer commercials during an event , are 56 percent more liely than
non-viewers to have a stronger expectation to drink as an adult.

Teenagers with high exposure to alcohol advertisements are more liely to thin it is
okay for teens to drink. Atki and Block    (1981) found this relationship as a result of
a seven phase research project. In this project, Atki and Block surveyed a
non-probabilty sample of 1 227 people 12 to 22 years old about their exposure to
alcohol ads , attitudes , and behaviors concerning alcohol. Thirt- two percent of youth
with high exposure to alcohol advertising believe it is okay for teenagers to get druk
while only 20 percent of the low exposure group hold this belief.

Adolescents heavily exposed to alcohol commercials show a positive attitude toward
drig.    Neuendorf (1985) surveyed 100 adolescents (aged 10 to 14) and found that
youth who are heavy television viewers are more likely to think that " all people who
dri are happy" and ' 'you have to drink to have fun at a sporting event.
Fifh and six grade  boys who viewed a television show where the main characters
drank were more likely to agree that the good thngs about alcohol are more
important than the bad things. In an experiment with 43 5th and 6th grade children
Kotch et al. (1986) surveyed chidren s attitudes about alcohol after exposing them to
1 of 2 conditions. They either saw (1) a video with the main characters drikig
alcohol or (2) the same video with the alcohol scenes cut. Chidren were specifcally
asked to " thin of all the good and bad things that might happen to you if you drank
alcoholic beverages " then to identi ' 'which are more important to you " the good , the
bad, or are the good and bad thgs equal. The only effects on attitude were among
boys who saw the video with the main characters drinking.
Chidren shown a television program with alcohol scenes are more liely to choose an
alcoholic beverage as an appropriate    dri
                                         for adults. Rychtari et al. (1983) studied
75 chidren 8 to 11 years old ,   selected from an outpatient waiting room. They exposed
the chidren to one of thee conditions: (1) 5 minutes of a television program with
alcohol scenes, (2) the same 5 miutes with the alcohol scenes cut, or (3) no television
at all. The chidren were then asked to select a glass with whiskey or water to serve
pictured adults and children. Children who saw the alcohol scenes     were more liely to
offer the alcoholic drink to a pictured adult than the children who were not exposed to
alcohol on television.

EFCI OF ALHOL ADVETIING ON YOUT CONSUMON
Alcohol advertising is associated with drinking behavior durig adolescence.

Atki and Block (1981) analyzed a non- probability sample of 1 227 12- to 22-year-olds

about their exposure to alcohol advertsing and drinking behavior. Twelve- to

18-year-olds highly exposed to advertising report consuming more dri
and drg                                                                per evening€
             heaviy more days per week. Adolescents highly exposed to alcohol

advertsements were also more liely to think they will drink alcohol in the future.

Atk and Block' s study correlated self-reports of exposure and consumption. The

fidigs cannot show a causal relationship between ads and       drig. Strickland

(1984) has criticized this body of work for its non-random sampling procedures and

lack of codig strigency.

Exosure to alcohol advertising is related to heavy drinkig, problem     drig, and
hazrdous driking. Atki et al. (1983) used data from the same sample of
 227 12- to 22-year-olds to focus on the inuence of alcohol advertising on heavy
drig, defied as drig        5 or more driks at a time. Youth with high exposure to
alcohol advertising are twce as likely as those less exposed to say they have at least
five or six drinks at a tie at least once per week. Respondents highly exposed to
advertsing are signficantly more liely to admit to problem drinkg.

Atki et al. (1983) also found hazrdous     drig is more common among youth who
are exposed to more alcohol advertising. Among those with high exposure to alcohol
advertising, 39 percent have driven after drinkig in the past month , compared to
25 percent of those with low exposure.


In a surey of 1   650 7th , 9th , and 11th grade students in a metropolitan area
Strickland (1981, 1982,   1983) found that exposure to advertisements has a slight
correlation with youth consumption. Age , orientation toward advertising, and peers
are some of the factors that influence consumption the most.

Strickland' s findigs (1983) are consistent with prior research on adolescent
development that younger teens watch more television, and therefore more
advertsements , than older teens. However, older teens consume more alcohol than
younger teens. These dierences confound measurement of the relationship between
advertsing exposure and consumption.
Orientations or predispositions to advertsing may contribute to advertsing s influence.
Strickland (1982) found that youth who watch advertsements to fid out what kid of
people use the products and want to be lie.     those people are more liely to have
alcohol advertising affect their alcohol consumption.

However, Strickland (1983) found peers are a more important influence than alcohol
advertsing on youth alcohol consumption. Peers introduce each other to and
reinorce certain behaviors ,   such as alcohol use. There is a substantial relationship
between the proportion of the respondent' s close friends who drink and indications of
alcohol use and abuse.

ADVETIING IMGES AN                   TI ATTCT                       TO YOUT
Youth may be inuenced by celebrity endorsements         and young models. Data from
Atk and Block's non- probabilty sample of 1 227 12- through 22-year-olds show that
celebrity endorsements, sexual themes , and young models in alcohol advertsements
impress adolescents. Adolescents were most impressed with celebrities and young
models in alcohol advertisements. Moreover, the adolescents were more likely than
adults to perceive the models as under 21 years old. Atkin and Block report that
advertisements with sexual themes appeal to adolescents.

Lieberman and Orlandi (1987) report that sixh grade students recall sports figures
celebrities , and young models in alcohol advertisements. A study of 2 766 6th grade
students in New York City asked students to recall and identify the people in an
alcohol advertsement. Sports figures and celebrities were the two most frequently
mentioned tyes of people. The students also recalled young models. Whe the
majority responded that the models were ' 'young adults    " 6. 9   percent of the students
thought that the models were " teens" or "kids.

Among a sample of 10- to 14-year-olds , humor and famous personalities lead the list
of reasons why an advertisement is their favorite. Neuendorf (1985) asked a sample
of 100 adolescents to name their favorite television commercial and give the reason
for this choice. Twenty percent of the adolescents selected a wie or beer commercial
as their favorite.



Adolescents are aware and appreciative of alcohol advertising. Aitken et al. (1988)
studied a quota sample of 433 adolescents between the ages of 10 and 17 in Glasgow
Scotland. Three demographic controls--age, social class , and sex-- deterrned the
sample quotas. Six-five percent of the young people surveyed could name a specifc
alcohol advertisement that they like. Most adolescents respond positively to television
advertsements for alcohol and do not      ththe advertisements are borig. Accordig
to the respondents , a good advertisement would be humorous , bright, and colorfl
with lively action, music, and style.
Aitken also found adolescents who have druk alcohol are more aware and
appreciative of alcohol advertisements than are adolescents who do not drik. Those
who have  dr     alcohol were more adept at recognizing and identifg brand imagery
in commercials. They also appreciated the music , action , and style in advertsements
more than adolescents who have never drunk alcohol.

In the OIG survey of junor and senior high school students , we found students like
ads that feature attractive people and make drikig look lie fu.
Th-    nie percent of students mentioned something they like about alcohol ads.
Students lie ads that:

               spotlght attractive models;

               make drikig look lie fu;
               are in attractive, exotic settigs;

               make the product look good; and

               are humorous.

Several students also described specifc ads they like. For example , one student said
 I lie the one where they clib the rocks. When they re on top, they break the rocks
and it turns into a bottle of Miler Genuie Draft.

STIE ON TH EFCT OF ALHOL ADVERTIING ON ADULTS
Much of the research on alcohol advertsing concerns the relationship between
exposure to alcohol advertisements and adult driking behavior. Often , the results of
these studies , which find no effects of advertising on adult drig behavior, are used
to counter allegations that alcohol advertsing affects youth attitudes and behavior.
The methodologies associated with several tyes of studies preclude examiation of
the effect of alcohol advertsements on youth. Types of studies that do not focus on
youth drikig are (1) experiental studies regarding alcohol consumption, (2) case
studies on alcohol advertising bans and restrictions , and (3) econometric analyses that
compare advertsing expenditures with aggregate sales.

Exeriental studies that measure actual alcohol consumption under controlled
circumstances do not focus on under-age youth for legal and ethical reasons. These
experiental studies observe the drinking behavior of people in a controlled setting in
response to alcohol advertisement exposure. The studies vary in their methodologies
and conclusions, but most do not show that alcohol advertising exposure leads to
increased alcohol consumption among adults. As an example, one experiental study


        Citations for the research referred to in this section are in the Appendix
monitored the alcohol consumption of male college students of legal age whie
watchig sport programs with                     either many, few, or no advertsements for alcohol.
The researchers found advertisements afected the timing but not the overall quantity
of respondents ' driking.

Case studies of alcohol advertsing bans and restrictions provide no information about
youth. These studies compare sales volume figures and measures of aggegate alcohol
use, such as alcohol-related morbidity rates , between States or between periods
diectly before and after implementation of a ban or other restriction on alcohol
advertising. The use of aggegate data of the population prevents the examination of
a ban s effect on youth consumption of alcohol. Case studies also evaluate the
short-term rather than the cumulative effects of advertising on consumption.
Generally, these case studies have found no effects of bans or restrictions of alcohol
advertsing on per capita consumption. For example, researchers who studied a
14-month partial ban of alcohol advertising in British Columbia found no effect on
beer, wie , or spirts consumption.

Econometric analyses compare advertsing expenditures with alcohol sales volume.
They are simar to case studies because inormation about youth drinking cannot be
separated from the aggegate data. These econometric analyses have failed to show
that alcohol consumption increases with increased spending on advertising.
Advertsing expenditures for beer, for example, rose relative to ination since                   1980.
Since the early 1980s ,                 however, beer consumption has leveled off and even declined
somewhat.6           Also
                  , it is diffcult to determine whether advertising levels affect sales
levels or vice versa. Sales may affect advertsing, since advertsing budgets are often a
fied percentage of the sales volume. Furthermore , alcohol advertisements may only
afect the consumption of specific brands without increasing the overall consumption.




                Kohn , P. M. and Sman , R.G. , "Te Impact of Televiion Advenising on Alcohol Consumption:
An Exerient,"           Journal of Studies on Alcohol. v. 45 , 1984, pp. 295-301.

                Sman, R. G. and Cutler , R.E.	 The Alcohol Advertising Ban in British Columbia: Problems
and Effec on Beverage Consumption," 
          British Journal of Addiction. v. 71, 1976, pp. 13- 21.

         Beer Sales and Population , 1970- 1989: State Reports Compiled by Beer Intitute and U.
Department of Commerce , Bureau of Census. Beer Inflation Adjusted Advertising Exenditures 1970-
1989: Leding National Advenisers and Broadcat Advertisers Report , Radio Exenditure Report
and R.S. Weinberg & Associates , Advenising Cost Index.
                                APPENDIX
                       ANOTATE BffUOGRAHY

EFFECT OF ALCOHOL ADVERTISING ON                 YOUI A7TES
Atk, c. , and M. Block, " Content and Effects of Alcohol Advertsing,
      prepared for BATF, Pub. No. PB82- 123142, Springfeld , Va. :    National
      Technical Inormation Servce,      1981.


      Researchers use a non-random sample composed of a diverse array of
      individuals. The questionnaire asks for self reports of exposure to
      alcohol ads , attitudes , and behaviors concerning alcohol. Advertsing
      appears to be associated with     drig    behavior durig the adolescent
      years.

Atki, C. , and M. Block, "A Reply to Strickland Journal of Studies on
      Alcohol. v. 45 , 1984, pp. 93- 100.

      Researchers defend their previous study against criticisms by Strickland€
      (1984). They claim few people seem to be astounded or even surprised
      by the results , which reinorce conventional wisdom and popular
      assumptions.

Neuendorf, K Alcohol Advertsing and Media Portrayals Journal of the Institute
     for Socioeconomic Studies. v. 10, 1985 , pp. 67- 78.

       Neuendorf surveys a sample of 100 10 to 14 year old respondents. The study
       fids that heavy television viewers are more likely to believedrig lied
                                                                          is
       to happiness and fu.    Also , 20 percent of respondents choose a wie or beer
       co=ercial as their   favorite.


Singer, D.     Alcohol , Television, and Teenagers Pediatrics. v. 76, 1985
       pp. 668- 674.


       Singer reviews studies on alcohol use among children and adolescents
       and on the effects of media and advertising. A co=unty-based
       capaign, supported by schools and parents ,    may be able to counteract
       the impact of the media on children and adolescents.
                , "                            , "




Strckland, D.    Content and Effects of Alcohol Advertising: Comment on
       NTIS Pub. No. PB82- 123142 Journal of Studies on Alcohol. v. 45, 1984
      pp. 87- 93.


      Strickland criticizes       Atk and Block' s study on effects of alcohol
      advertising. Strickland fids weaknesses in their samplig and coding
      procedures, their measures of advertsing exposure, and their defitions
      for categories of advertsing content.

Wallack, L.M. , D. Cassady and J. Grube    V. Beer Commercials and Chidren:
      Exosure, Attention, Beliefs , and Exectations About           Drig
                                                                  as an Adult
      AA Foundation for Traffc Safety, Fall 1990.
      Researchers study the effects of televised beer co=ercials on 5th and
      6th graders. They fid a correlation between their attention to beer
      co=ercials and their beliefs about the social and ritual aspects of beer
      drinkig and the expectation to drink as an adult.

EFFECT OF MEDIA PORTRYAL OF ALCOHOL ON YOUI                                 A7TES
Kotch, J. , M.L. Coulter, and A Lipsitz, " Does Televised         Drig Inuence
      Chdren    s Attitudes Toward Alcohol?"         Addictive Behaviors, v. 11 ,   1986
          67- 70.

      Fifh and sixh grade chidren watch videotaped            television programs with
      drig of alcoholic beverages by the principal characters. Boys who
      watch the     fi
                    with drinkg are significantly more likely to respond that
      the good thngs about alcohol are more important than the bad thgs.

Rychtari R.G. ,     J.   A Fairbank, C.M. Alen, D. W. Foy, and R.S. Drabman Alcohol
      Use in Television Progra=ing: Effects on Children s Behavior Addictive
      Behaviors. v. 8, 1983 , pp. 19-22.

      Researchers ask chidren who have watched a television program with
      alcohol scenes to serve either ' 'whiskey '' or ' 'water '' to pictured adults and
      chidren. Results indicate that subjects who view televised driking are
      signifcantly more likely to choose alcoholic beverages for pictured adults€
      but not for children.

                                            , '





EFFECT OF ALCOHOL ADVERTISING              ONYOUI CONSUMPTON

Atk, C. and M. Block, "Content and Effects of Alcohol Advertsing,
      prepared for BATF, Pub. No. PB82- 123142, Springfeld , Va. :    National
      Techncal Information Servce, 1981.

      Researchers use a non-random sample composed of a diverse array of€
      individuals. The questionnaire asks for self reports of exposure to€
      alcohol ads , attitudes , and behaviors concerning alcohol. Advertsing€
      appears to be associated with drinkig behavior during the adolescent€
      years.€

Atk , C. , K. Neuendorf, and S. McDermott      'Te Role of Alcohol Advertsing
      in Excessive and Hazrdous Drinkg, Journal of Drug Education.         v. 13
      no. 4 ,   1983 , pp. 313- 325.

      Researchers conduct a nationwide survey of youth ages 12 to 22 about
      exposure to alcohol advertising and its effects on consumption and
      drig    in hazardous contexts. Alcohol advertising appears to
      contribute to certain forms of problem drinking.

Strickland, D.    Advertsing Exosure, Alcohol Consumption and Misuse of
       Alcohol " In Grant, Plant, and Wiliams (Eds. Economics and Alcohol:
      ConsumPtion and Controls. 1983 , p. 201- 221.

      Strickland reviews the research on the proposed lin between advertsing
      and consumption. There have been few systematic studies of the effects€
      of alcohol advertsing on the consumption and abuse of alcohol.€
      Strickland analyzes the effects of televised alcoholic beverage advertising€
      on alcohol consumption among students in 7th , 9th, and 11th grade.
      The inuence of dierential peer association is almost twce that of the€
      mass media effect.

Strickland , D.    The Advertising Regulation Issue: Some Empirical Evidence
        Concerng Advertsing Exosure and Teenage Consumption Patterns " Paper
        presented at the conference on Control Issues in Alcohol Abuse Prevention
        Charleston , South Carolia , September 1981.

      Strickland analyzes the effects of televised alcohol beverage advertising
      on alcohol consumption among students in 7th , 9th , and 11th grade.
      Both advertising exposure and diferential peer association have effects
      on consumption. The interpersonal infuence measured here is alost
      twce that of the mass media effect.
                  , "




Strckland , D.       Alcohol Advertising: Orientation and Infuence           Journal of
       Advertising,     v. 1   , 1982, pp. 307- 319.

       Strickland analyzes the effects of televised alcohol beverage advertising
       on alcohol consumption among students in 7th , 9th , and 11th grades.
       Exosure to advertsing affects the consumption level of only those teens
       holdig high social utity and high vicarious utilty orientations to
       advertsing.

ANALYSES OF ADVERTISING IMGES                          AN mEMES       ATTCT TO YOUI
Aitken, P. , D.R Eadie, D.S. Leathar, RE.J. McNeil, and A.C. Scott Television
      Advertisements for Alcoholic           Dri  Reinforce Under-age Dring,
      British Journal of Addiction, v. 83 , 1988, pp. 1399- 1419.

       Researchers intervew children 10 to 17 years old in Scotland about their
       recall and recognition of alcohol advertising and what they fid attractive
       about it. Chidren are much more aware and appreciative of alcohol
       advertsing than adults realize.

Breed, W. and J.R De Foe              Dring and Smoking on Television , 1950- 1982
       Journal of Public Health PolicY. v. 5 ,         1984, pp. 257- 270.

       Researchers study effects of representations of drikig and smokig on
       television in four periods between 1950- 1982. Dramas and situation
       comedies show a steady drop in the use of cigarettes , while the use of
       alcohol shows an increase.

Breed , W. , J.R De Foe, and L.M. Wallack Drinking in the Mass Media: A
       Nine-Year Project Journal of Drug Issues. v. 14, 1984, pp. 655- 664.

       Researchers use stratifed random samples from television , magazes
       daily newspapers , college newspapers , and comic books to analyze the
       content of alcohol ads. Many appearances of alcohol were mior, yet
       their frequency was considerable.

Breed , W. , L.M. Wallack, and J. Grube Alcohol Advertising in College
       Newspapers: A 7- Year Follow-up, Journal of American College Health, v. 38
       May 1990, pp. 255-262.

       Researchers compare the frequency and nature of alcohol ads in a
       1984- 85 sample of college newspapers with the results of a 1977-
       study. On average , the 1984- 85 sample shows less national alcohol
       advertsing. Fewer ads ridicule education, feature athletes, or show
       group     drig. More ads feature fantasy themes. Alcohol industry
       sponsorship of campus activities increased.
                                          , '   , "




De Foe ,   J.



                     199.
          , and W. Breed 'Te Problem of Alcohol Advertisements in College
      Newspapers Journal of the American College Health Association. v. 27, 1979
      pp. 195-


      Researchers review 32 college newspapers selected at random from a list
      of the 400 largest campuses. Alcohol advertisements make up
      approxiately one-half of all national advertising.

De Foe ,   J.     , and W. Breed Youth and Alcohol in Television Stories, With
      Suggestions to the Industry for Alternative Portrayals, Adolescence. v. XXII
      no. 91 ,
            Fall 1988, pp. 533-550.

      Researchers describe scenes from prie- time                    television programs from
      1976-77 that involve youth and                      drig.   They find several television
      portayals of alcohol issues to have educational value and suggest' such
      portrayals for television producers , wrters , and directors to consider.

Fir, T.         , and D. E.   Strickland           A Content Analysis of Beverage Alcohol
      Advertsing,            Journal of Studies on Alcohol. v. 43 ,       1982, pp. 964-988.

      Researchers monitor periods of televised alcohol beverage
      advertisements durng the 1979- 80                    television season. They base the
      expected concentrations of alcohol commercials on                    Broadcast
      Advertisers Reports . Ads with sociabilty and conviviality themes
      (camaraderie , relaxation , and humor) occur the most often.

Lieberman, L.         , and M. A. Orlandi Alcohol Advertising and Adolescent Drig,
      Alcohol Health and Research World. v. 12 ,      no. 1 , 1987, pp. 30- 43.

      Researchers survey 6th graders in New York City to gain insight into the
      specifc aspects of advertisements that children observe and recall.
      Alcohol advertising is one of several influences that can predispose
      adolescents to feel positively toward drinking.

Smal , M.           Alcohol Portrayal in the Mass Media Alcohol Health and Research
      World.        Fall 1980,       pp. 30- 34.

      Small reviews research on the portrayal of alcohol use on television.
      Findigs do not reveal any consistencies among methodologies, and
      approaches have produced different conclusions.
Strickland, D. , T. A. Fin , and M.D. Lambert A Content Analysis of Beverage
       Alcohol Advertising, Journal of Studies on Alcohol. v. 42, 1982
      pp. 655- 682.


      Researchers analyze themes and appeals , techniques of presentation
      and use of human models. They use a structural analysis of beverage
      alcohol advertising, broken down by tye of beverage , liquor marketers
      and magazines ,  in 42 national magazies of 1978. Appeals to quality of
      product , process , or ingredients are the most common themes in alcohol
      ads.

Strickland, D.E. and D.J. Pittman, "Advertising and Alcohol Abuse: A Crtique
        of Breed and DeFoe s ' Risk and Alcohol Lifestyle Advertsing.

      Strickland' s and Pittman s major criticisms of Breed and DeFoe are (1) Breed
      and DeFoe do not dierentiate legitimate moderate consumption from abusive
      consumption , (2) both heavy drinkers and abstinent youth have images of
      drnkers as more sociable than non- drinkers , and (3) many other factors
      inuence drig.
  S. Departent of Health and Human Servces, DIG- DEI Youth and Alcohol: A
      National Survey--Drinking Habits. Access. Attitudes. and Knowledge
      OEI-09-91-00652, June 1991.

      The Offce of Inspector General (OIG) uses a multi-stage, random sample of
      956 7th through 12th grade students. The survey asks about students '   alcohol
      consumption , abilty to obtain alcohol , and knowledge and perceptions about
      alcohol-related areas. The OIG finds that students like various aspects of
      alcohol ads.

EXERIENT STUIES                   ON ADULT CONSUMPTON

Dorn, N. , and N. South Alcohol and the Media: A Review and Critique of the
       Effects' Model " International uarterl of Communi Health Education
      v. 3 ,   1982- 1983 , pp. 183- 193.

      Researchers review empirical material bearing upon whether alcohol
      advertising has effects on the general level of consumption. The current
      model lookig at the effects on general consumption is too lited a
      framework for the development of research.
                              , "




Kohn, P. M. and R.G. Smart The Impact of Television Advertising on Alcohol
      Consumption: An Exeriment Journal of Studies on Alcohol, v. 45 , no. 4
        1984, pp. 295- 301.

       Researchers measure the effects of alcohol advertising on the beer
       consumption of college men. Exosure to the first few commercials
       increases consumption; however, continued exposure does not.

Kohn, P.M. and R.G. Smart Wine, Women, Suspiciousness and Advertising,
      Journal of Studies on Alcohol, v. 48 , no. 2 , 1987 , pp. 161- 166.


       Researchers expose college women to wine commercials durig a soap
       opera episode ostensibly to evaluate the appeal of the program to
       college women. Women exposed to nine wine commercials consume
       more wine than those exposed to three. Several women are suspicious
        of the research design.


Kohn, P. , R.G. Smart, and A.C. Ogborne Effects of Two Kids of Alcohol
      Advertsing on Subsequent Consumption Journal of Advertising. v. 13 , no. 1
        1984 , pp. 34-39.

        Researchers experient with drinkers ages 19 to 45 to measure the
        effects of lifestyle and tombstone advertising on alcohol consumption.
        They fid no evidence that either lifestyle or tombstone advertsing has
        any impact, immediate, or delayed , on any category of alcohol
        consumption.

McCart, D. ,    and J. Ewig, "Alcohol Consumption While Viewig Alcoholic
        Beverage Advertising, The International Journal of the Addictions,   v. 18
        no. 7 , 1983 , pp. 1011- 1018.


        Researchers measure the effects of alcohol advertising on adult
        consumption when subjects have had a drink before viewig
        commercials. The results suggest that advertising may influence
        individuals who have been drinking.

                  Sobell , D. M. Riey, R. Klajner , G. L. Leo , D. Pavan , and
Sobell , L.c. , M. B.
        A. Cancila Effect of Television Programming and Advertising on Alcohol
        Consumption in Normal Drinkers Journal of Studies on Alcohol. v. 47, 1986
        pp. 333- 340.


        Researchers examine the effects of exposure to television programs with
        alcohol scenes and beer commercials on the behavior of normal
        drkers. They fid no effects of this exposure on consumption.
                  , "           , "         , "      , "




Sterlig, C.    A Review of Literature on the Scope, Content, and Impact of
      Television and Radio Advertsing of Wine and Beer Products
      1975- 1984 " prepared for National Association of Broadcasters, 1984.

      Sterlig reviews research on alcohol advertising      s effects. Sterlig
      concludes that rhetoric abounds while specific and supportable research
      fidigs of any tye are not available.

Toneatto, T. , L.C. Sobell, G. L. Leo, and M.B. Sobell Effects of Alcohol Cues in
      Television Programs and Commercials on the Urge to Consume Alcohol
      Paper presented at the Annual Meeting of the Association for Advancement of
      Behavior Therapy, Washington , D. , November 1989.

      Researchers study alcohol abusers ' abilty to resist the urge to    dri
      heaviy after exposure to alcohol cues in television programs and
      co=ercials. They find no effects of this exposure on consumption.

CAE STUIES ON ADVERTISING BAS AN RESTRCTONS

Hoadley, J. , B. C. Fuchs , and H. D. Holder The Effect of Alcohol Beverage
      Restrictions on Consumption: A 25- Year Longitudinal Analysis American
      Journal on Drug and Alcohol Abuse. v. 10, no. 3 , 1984, pp. 375- 401.

      Researchers analyze the impact of State regulation and control measures
       on per capita distiled spirts consumption using the 25-year period
       1955- 1980. The effectiveness of State alcoholic beverage controls in holdig
       down consumption is largely unproven.

Ogborne, AC. , and R.G. Smart Wil Restrictions on Alcohol Advertsing Reduce
       Alcohol Consumption?" British Journal of Addiction. v. 75 , 1980, pp. 293-296.

       Researchers analyze the relationships between advertising restrictions
       and consumption and alcoholism rates in different States in the U. S. and
       between two Canadian provinces. Relationships are very weak and not
       statistically siguificant.

Smart, R.G. Does Alcohol Advertsing Afect Overall Consumption? A Review of
       Empirical Studies Journal of Studies on Alcohol. v. 49 , no. 4 , 1988
              314-323.

       Smar s review of the research indicates that: (1) advertising bans do
       not reduce alcohol sales, (2) total advertising expenditures have no
       reliable correlation with sales of alcoholic beverages , and
       (3) experiental studies tyically show no effect of advertising on actual
       consumption.
                    , "          ,, ""
                                     "





Smart, R.G. and R.E. Cutler The Alcohol Advertising Ban in British Columbia:
      Problems and Effects on Beverage Consumption, British Journal of Addiction.
      v. 71 , 1976, pp. 13- 21.

      Researchers study a ban on advertising of alcoholic beverages for
      14 months in British Columbia. They fid no decrease in per capita alcohol
      consumption. The researchers acknowledge the diffculties assessing effects of
      a short-term        ban.

Van Iwaarden , T. Advertising, Alcohol Consumption and Policy Alternatives
      In Grant , Plant, & Wilams (Eds. Economics and Alcohol: Consumption            and
      Controls. 1983 , pp. 223-237.

      Van Iwaarden discusses the market share theory of advertising and
      examines the merits and disadvantages of a ban on alcohol advertising.

ECONOMETRC STUIES OF ADVERTISING AN CONSUMPTON

The Advertsing Association The Relationship Between Advertsing and
     Alcohol Misuse " Submission to the Ministerial Group, December 16,      1987.


      Ths review of studies on the effects of alcohol advertising on per capita
      consumption concludes advertising does not have an effect.

Duf, M.       Measurig the Contribution of Advertising to Growt in Demand:
      An Economic-Accounting Framework International Journal of Advertising.
      v. 8, 1989, pp. 95- 110.

      Duff explains the marked diferences over the years of growth rates of
      consumption of beer , spirts , and wie in the United Kigdom, using an
      econometric model of alcoholic      dri
                                            demand. Advertsing s role is
      barely measurable in an absolute sense and unimportant in comparison
      with the effect of income.

Franke, G. , and G. B. Wilcox Alcoholic Beverage Advertsing and Consumption in
      the United States , 1964- 1984 Journal of Advertising. v. 16, no. 3 , 1987
      pp. 22- 30.


      Researchers examie alcohol industry advertising expenditures in
      network and spot television , network radio , magazines , newspaper
      supplements, and outdoor media. They find no evidence of a signficant
      relationship between total advertsing and per capita consumption of
      beer. They fid positive siguificant relationships with per capita
      consumption of wie and distiled spirits.
           ,"




Lee, B. and V. Tremblay, "Advertising and the U. S. Market Demand for
      Beer " Department of Economics, Oregon State University, May 24, 1990
      forthcomig in Applied Economics

      Researchers examine U.S. annual beer consumption from 1953 through 1983.

      The most important determinants of beer market demand are the price of beer
      and substitutes , demographics , and the advent of light beer. Although
      advertsing is liely to affect market shares , results do not show a significant
      effect on market demand for beer.

Shoup, H. Comments of Harold A Shoup, Executive Vice President , America
      Association of Advertising Agencies The ACA Research Ouarterly. v. 1
      no. 4 , 1990 , pp. 13- 14.


      Shoup explains advertising has two objectives: (1) to introduce products
      and servces and (2) to protect or increase a marketer s brand share in
      an increasingly competitive marketplace. Alcohol advertsing does not
      lead to increased consumption.

Smar, R.G. Socio-economic, Lifestyle, and Availabilty Factors in the
     Stabiltion of Alcohol Consumption in Canada Canadian Journal of Public
      Health. v. 78, 1987, pp. 176- 180.

      Smart fids that between 1975-    , Canadian per capita alcohol
      consumption declied slightly after a long period of increased
      consumption in spite of increases in alcohol availabilty and advertising
      budgets.

Treml, V.     Production and Consumption of Alcoholic Beverages in the USSR:
      A Statistical Study, Journal of Studies on Alcohol. v. 36, no. 3 , 1975
      pp. 285- 320.


      Treml fids an increase of production and per capita consumption of
      alcohol in the USSR over the 15 years prior to 1972, in spite of frequent
      anti-alcohol campaigns and an absence of alcohol advertising.

  S. Federal Trade Commssion Recommendations of the Staff of the Federal Trade
      Commssion: Omnbus Petition for Regulation of Unfair and Deceptive
      Alcoholic Beverage Advertising and Marketing Practices , Docket No. 209-
      March 1985.

      The FTC responds to the challenge that alcohol advertising encourages
      alcohol abuse. They conclude that the existing body of economic and
      marketing research sheds viually no light on relationship between
      alcohol advertising and abuse. They feel BATF has jurisdiction in ths
      area.
               , "             , "   , "   , "





Waterson, M.         Advertising Facts and Advertising TIusions   International
      Journal of Advertising, v. 3, 1984 , pp. 207-222.

      Waterson argues the absence of advertising leads to less choice, lower
      levels of inovation , higher prices , and the vices of cartels and protected
      or reguated markets. There is no evidence to suggest advertising can
      manipulate the overall size of such large mature markets even if that is
      the deliberate intention.

Waterson, M.  Advertising and Alcohol: An Analysis of the Evidence Relating to
      Two Major Aspects of the Debate International Journal of Advertising. v. 8
      1989 , pp. 111- 131.

      Waterson analyzes the argument surrounding the effects of alcohol
      advertising on alcohol consumption. Advertising plays an insignificant
      role in molding the broad patterns of demand.

R.S. Weinberg & Associates Advertising and Malt Beverage Demand: A Macro
      Analysis of Brewing Industry Advertising Exenditures 1947- 1983 " Briefig for
      Ad Ban Task Force, Aneuser-Busch , Inc. , 1984.

      Researchers measure advertising effectiveness by correlating advertising
      expenditures with per capita consumption. Malt beverage advertising
      does not have any signcant impact on the total level of malt beverage
      consumption.

Wilcox, G. , D. Shea , and R. Hovland Alcoholic Beverage Advertsing and the
      Electronic Media Communications and the Law, v. 8, 1986, pp. 31- 41.

      The authors review the Federal Trade Commission decision on
      advertising. There is insuffcient reason to warrant regulation of alcohol
      advertsing on the basis of deception or unfairness because, even if
      advertsing stimulates consumption , alcohol abuse does not necessariy
      result from increased consumption.

MISCELLEOUS STUIES
AM Board of Trustees Report         Alcohol: Advertising, Counteradvertising, and
      Depiction in the Public Media Journal of the American Medical Association,
      v. 256, no. 11 , 1986, pp. 1485- 1488.

      Ths report summaries existing laws and regulations on alcohol
      advertsing, including BATF and FTC roles. Research on the link
      between advertising and consumption has methodological flaws , yet
      alcohol advertising influences excessive or hazardous drinking to a
      limited degree.
Buchanan, D. , and J. Lev Beer and Fast Cars: How Brewers Target Blue-collar
      Youth through Motor Sport Sponsorships. AA Foundation for Traffc Safety,
       1989.

       The study documents industry expenditures and justifications for motor€
       sports sponsorships. The researchers attend motor. sports events and
       intervew students about their attitudes about drinking and drivig.€
       Motor sports receive the most sponsorship money of all tyes of sports.

Cowan , R. and J.F. Mosher Public Health Implications of Beverage Marketing,
      Contemporaty Drug Problems. v. 12, 1985 , pp. 621- 657.

       Cowan and Mosher describe the alcohol beverage market and practices.
       When the alcohol industr devises marketing strategies that directly
       compete with nonalcoholic beverages , there are serious public health
       implications.

Hacker, G. , R. Collins , and M. Jacobson Marketing Booze to Blacks. Center
      for Science in the Public Interest, 1989.

       The authors examine the marketing of alcohol to Blacks and make
       several recommendations to alcohol companies , black media, black civic
       and communty leaders, other businesses and governent.

Katzper, M. , R. Ryback, and M. Hertzman Alcoholic Beverage Advertsement
      and Consumption Journal of Dru!! Issues. v. 8 , no. 4 , 1978 , pp. 339- 353.

       The authors review the alcohol beverage industry s role and views
       regardig advertising. The alcohol industry has its own set of advertising
       gudelines, which are preferable to Federal regulation. They conclude
       that the alcoholic beverage industry assumes advertising increases
       consumption.

Kiboure, J.    Deadly Persuasion: The Case Against Advertising of ' Legal' Drugs
       Adolescent Counselor. Oct/Nov, 1990.


       Kiboure argues that alcohol advertising affects attitude formation and€
       the internalization of social norms. Kilbourne suggests ways to reduce€
       the effects of alcohol advertising on children and to educate them about
       alcohol.€
              , "              , "               , "




Maxell, B. and M. Jacobson Marketing Disease to Hispanics. Center for
      Science in the Public Interest,   1989.


      The authors review the literature about the marketing of alcohol to
      Hispanics and the associated health risks of alcohol , tobacco , and ' Jun
      foods. " Peer pressure and parental drinkng behaviors are the two
      biggest factors affecting drinking by youth.

Mosher, J. F. and L.M. Wallack Government Regulation of Alcohol Advertising:
     Protecting Industry Profits versus Promoting the Public Health, Journal of
      Public Health Policy. December 1981 , pp. 333- 353.

      Mosher and Wallack challenge the approach taken by the Bureau of
      Alcohol , Tobacco , and Firearms (BATF). They urge BATF to take
      seriously its responsibilty under the Federal Alcohol Adminstration Act
      to protect the public from misleading and potentially misleading alcohol
      advertising.

Neuendorf, K. Summary of Nov. 16 Presentation Addressing the Question
      Should Advertsing Be Restricted on Alcoholic            The ACA
                                                       Beverages?'"

     Researcp. Quarterly v. 1 , no. 4, 1990, pp. 15- 16.

      Neuendorf agrees that it is impossible to pinpoint a causal relationship
      between alcohol advertising and consumption given the evidence to date.
      The most effective tye of regulation would involve " counteradvertising
      includig health messages , rather than a prohibition against alcohol
      advertising.

Orlandi, M. , L.R. Lieberman , and S. P. Schinke The Effects of Alcohol and
      Tobacco Advertising on Adolescents Drugs and Society. v. 3 , no. 1/2, 1988
      pp. 77- 97.


      The authors explain arguents about the effects of advertsing on
      chidren and adolescents that have been made by alcohol and tobacco
      industries , researchers , and public health advocates. They suggest an
      alternative framework for future discussions on the effect of alcohol and
      tobacco advertsing on adolescent substance use.
                 , "

                   "




Postman, N. , C. Nystrom, L. Strate , and C. Weingartner Myths. Men. & Beer:
      An Analysis of Beer Commercials on Broadcast Television. 1987.
      AA Foundation for Traffc Safety, 1987.
      The authors examine the cultural myths and messages in a sample of
      40 commercials broadcast on network television during in February and March
      of 1987. Television commercials play an important role in children
      internalization of cultural meanings , interpretations , and values , whether or not
      the commercials are directed at children.

  S. Department of Health and Human Servces , Alcohol, Drug Abuse, and Mental
      Health Admistration , National Institute on Alcohol Abuse and Alcoholism,
      Seventh Special Report to the U.S. Congress on Alcohol and Health,
      January 1990.



      The authors report the current information on alcohol abuse ,    the health
      consequences of alcohol use, and social factors involved in alcohol use.
      Research on the effects of advertising has not documented a strong relationship
      between alcohol advertising and consumption. The authors call for further
      research on the role of advertising.

Wallack, L.M. Assessing Effects of Mass Media Campaigns: An Alternative
      Perspective Alcohol Health and Research World, Fall 1980, pp. 17-29.

      Wallack studies the assumptions that underlie mass media campaigns
      and offers an alternative framework for assessing possible campaign
      effects.

Wallack, L.M. Mass Media Campaigns: The Odds Against Finding Behavior
      Change Health Education Ouarter1y v. 8 , no. 3 , 1981, pp. 209-251.

      Wallack reviews the history, commonalities , and effects of large-scale
      moderation and abstinence campaigus. It is not surprising that mass
      media based campaigns have shown few direct effects.

Wallack, L.M. Alcohol Advertising Reassessed: The Public Health Perspective
      In Grant, Plant & Willams (Eds. Economics and Alcohol: Consumption and
      Controls, 1983 , pp. 243-248.

      Wallack reviews studies that (1) use econometric models , (2) assess the
      effects of advertising on individuals , and (3) analyze the content of
      advertising. None of the approaches addresses the cultural meaning and
      values established and transmitted by advertising.
                        """""                                                    . . . . . . . . . "




                                                      INDEX

The Advertising Association. . . . .. A-                  McCarty, D. .................. A-

Aitken, P. P. . . . . . . . . . . . 0 .. 5 , A-4          McDermott , S. . . . . . . . . . . . . . . . .. A-
Allen, C.M. .................. A­                         McNeil , RE.J. ................ A-
1\tkin , C. 0.......... 3 , 4 , 5 , 1\- , 1\­             Mosher, J. P. ............. A- , A-
AM Board of Trutee. . . . . .. A-                         Neuendorf, K. ..... 3 , A- , A- , A-
Beer Intitute ................                            Nystrom , C. . .. ... .. ... .. .. ... A-
Block , M. "        '.0.. ..             , A- , A-        Ogborne , AC. . .. ... ... .. .. A- , A-
Bree , W. ............             0 .. A-    , A-        Orlandi , M.  A. .                      , A- , A-
Buchanan , D. R.. 0............ A-                        Pavan , D. .................... A-
Cancila, A . 0"               " A-                        Pittman , D. J. .. . . . . . . . . . . . . . . .. 1\­
Cassady, D. .................. A-                         Postman , N. . . . . . . . . . . . . . . . . .. A-
Coll, R. ..................                     A-        Riley, D.M. ................... A-
Coulter , M. L. . . . . . . . . . . . . . . . .. A-       Ryback, R ..................                    A-
Cowan , R. .................. A-                          Rychtarik , R. G. ... . . . . . . . . . .. 4 , A-
Cutler , RE. . . . . . . . . . . . . . . .. 7, A-         Schinke, S. P. ................. A-
De Foe, J. R ............. A-4, A-                        Scott , AC. . . . . . . . . . . . . . . . . . . .. A-
Dorn , N. .................... A-                         Shea , D. .................... A-
Drabman , RS. . . . . . . . . . . . . . . .. A-           Shoup, H. ................... A-
Duff, M. H.      . . . . . . . . . . . . . . . . .. A-    Singer , D. G. ' .................. A-
Eadie, D.R. .................. A-                         Small, M. A. . . . . . . . . . . . . . . . . .. 1\­
Ewig, J. .................... A-                          Smart , RG. .. . .. 7 , A- , A- , 1\- , 1\-
Fairbank,    JA .........         0 . . . . .. A-         Sobell , L.C. .... 0" " ... ... A- , A-
Finn , TA .. 0 . . . . 0 . . . . . . . .. .. A-           Sobell , M. B. .............. A- , A-



                                                                            E.
Foy, D. W. "                      ....0.. A-              South, N. . . . . . . . . . . . . . . . . . . . .. A-
Franke, G. . . . . . . . . . . . . . . . . . .. A-        Sterling, C. H. . . . . . . . . . . . . . . . . .. A-
Fuchs, B. C. .................. A-                        Strate, L. . . . . . . . . . . . . . . . . . . .. A-
Grbe, J. .. . . . . . . . . . . . . .. A- , A-            Strickland , D.
Hacker, G.A................ A-                             . . . . . . . .. 4, 5 , 1\- , 1\- , 1\- , 1\- , A-
Hertzman , M. ............... A-                          Toneatto , T. .................. A-
Hoadley, J. P. ................ 0 A-                      Tremblay, V. ................. A-
Holder, H.D. ................. A-                         Treml , V. G. . . . . . . 0 . . . . . . . . . .. A­
Hovland, R. . . . . . . . . . . . . . . . .. A-             S. Department of Health
Jacobson, M. ............ A- , A-                          and Human Servce. . . . . 1 , A- , A­
Katzper, M. . . 0 . . . . . . . . . . . . .. A-             S. Federal Trade Commission. .. A-
Kibourne, J. ................ A-                          Van Iwaarden , T. . . . . . . . . . . . . . .. A-
Klajner, R. . .... ..... .... ..... A-                    Wallack , L.M. .. 3 , A- , A-4 , A- , A-
Kohn , P. M. ................ 7 , A-                      Waterson , M. J. ............... A­
Kotch , J. B. . . . . . . . . . . . . . . . .. 3 , A-     RS. Weinberg & Associates. . . .. A-
Lambert , M. D. . . . . . . . . . . . . . . .. A-         Weingartner, C. . . . . . . . . . . . . . .. A-
Leathar, Do S. . . . . . . . . . . . . . . . .. A­        Wilcox, G. B. ............. A- , A-
     , B. ....................                   A­
     , G. L... .. .. ... ....... A-            , A-
Lev, J. ... . . . . . . . . . . . . . . . . .. A-
Lieberman , L. R. ........ 1\- 1\-
Lipsitz , A ................... A-
Maxell , B. .................                    A-
